U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

April 9, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Sok Bun v. United States, No. 19-1037
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 19,
2020. The government’s response is now due, after one extension, on April 20, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including May 14, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-1037
BUN, SOK
USA

ISHAN K. BHABHA
JENNER & BLOCK LLP
1099 NEW YORK AVE., NW
SUITE 900
WASHINGTON, DC 20001
202-637-6327
IBHABHA@JENNER.COM
C. CARLYLE STEELE
C. CARLYLE STREE,LAWYER
16 WHITSETT STREET
GREENVILLE, SC 29601
864-271-4360
CARLYLESTREELE@BELLSOUTH.NET

